Overall we concluded that CPB needs to adhere more closely to its procurement policies
and procedures when awarding sole source contracts, as well as more consistently comply
with the Public Broadcasting Act (Act) requirements when awarding national programming
grants. Based on our evaluation we could not substantiate the allegations of favoritism in
awarding contracts and grants from the documented records. To avoid any appearance of
favoritism in awarding contracts and grants CPB should ensure that sole source
justifications appropriately justify the reasons contractors are considered the only
practicable option or that emergencies exist. Further, national programming proposals
should be reviewed by an outside panel, as specified by the statute.

In response to the draft report, CPB management generally concurred with the findings and
recommendations with respect to improved documentation of procurement decisions,
particularly in cases of sole source or emergency determinations. Although they agreed that
sole source procurements could have been better documented for some of the
procurements highlighted in the report, management also believes that their decisions were
justified and appropriate under CPB policy. They stated that their award decisions provided
good value to CPB and represented a reasonable exercise of business discretion. CPB
management also believes that content-related grant award decisions, which management
stated were not subject to the procurement policy and its RFP process, could have been
documented better to record their decision that an outside panel review was not practicable.
CPB’s complete response to the draft report is attached in Exhibit D.

This report presents the conclusions of the OIG. The findings and recommendations
contained in this report do not necessarily represent CPB management’s final position on
these issues. Accordingly, the report contains recommendations the OIG believes would be
appropriate to resolve these findings.

In accordance with CPB audit resolution procedures, CPB management is responsible for
determining the corrective actions to be taken. Based on CPB’s management response we
consider recommendations 1a-e, and 2c unresolved and open pending CPB’s final
management decision on these findings and recommendations. Recommendation 2a and b
are considered resolved but open pending corrective actions.

Our scope and methodology is discussed in Exhibit A. We performed our evaluation in
accordance with the Counsel of the Inspectors General on Integrity and Efficiency’s (CIGIE)
Quality Standards for Inspection and Evaluation.




                                             2
                                      BACKGROUND

On February 9, 2012, CPB management received an anonymous complaint alleging
mismanagement of a number of different activities, including procurements. CPB
management referred this matter to our office for further review. We initiated this evaluation
to address the allegation of favoritism in awarding contracts and grants.

CPB’s guidelines for procuring goods and services are contained in the CPB Procurement
Policy, the CPB Contracts Policy, and the Project Officer Handbook (Handbook). CPB’s
procurement policy applies to the procurement of goods and services, including consulting
services. It does not apply to the negotiation, award, and administration of grants to public
broadcasting and public telecommunication entities for the production and distribution of
programming, and other program related activities, including program outreach and production
training. The contracts policy provides general guidance for producing a quality business
contract and describes the minimum documentation required for contract oversight. For the
purposes of this policy “contracts” includes production grants. The Handbook contains,
policies, guidelines, best practices, and process-related information to assist project officers
effectively manage both grants and contracts. It also explains that there are two types of
funding arrangements relevant to project officers—grants and purchases (contracts). CPB’s
Grants Information and Financial Tracking System (GIFTS) is an automated database used
to track grants and contracts as they move through the CPB life cycle from proposal to
completion of the project.

CPB Procurement Policy

The CPB Procurement Policy requires that sole source contracts are to be used for purchases
where there is only one contractor “practicably” available for the project or purchase, or in the
case of an emergency. The prior version of CPB’s procurement policy used the term uniquely
qualified instead of “practicably” available to justify sole source. The policy also requires that
when making sole source procurements, the contract file should contain a written
determination of the rationale for selecting the contractor and an explanation of why the price
was reasonable. For emergency procurements the contract file must also include the basis for
the emergency. CPB’s procurement policy defines an emergency as an “urgent and
unforeseen” situation. Most importantly, the Handbook establishes that the sole source option
should not be used in most instances.

CPB Contracts Policy

The contracts policy establishes general guidance to produce a business contract of good
quality that protects CPB assets and ensures an understanding of expectations by all parties.
The policy also describes the minimum required documentation of management oversight.




                                                3
Project Officer Handbook

The Handbook provides operating guidance to Project Officers to procure and oversee
contracts and grants. The Handbook explains that there are two options when awarding
contracts—competitive bids and sole source. Competitive bids are used to obtain multiple
competitive responses (prices) from various bidders for the purchase of goods and services.
This is the preferred method and includes a Request for Proposals (RFP) that formally
announces the contract to prospective bidders. The CPB Procurement Policy requires RFPs
to be posted to the CPB web site for at least 10 business days prior to the date that bids are
required. The bidder selected is deemed to be responsible, fully qualified, and best suited
based on the evaluation factors included in the RFP, such as quality, price, delivery date, and
qualifications. RFPs are not mandated for grants and are not always used by CPB. Instead,
grants are often awarded based on unsolicited proposals submitted by grantees.

The Handbook explains that CPB uses the term “contract” to refer to both grants and
contracts. Further, project officers must follow CPB’s procurement policy when awarding
contracts. The overall purpose of the procurement policy is to ensure that CPB operates in a
prudent and financially responsible manner by purchasing high quality goods and services at
favorable costs through purchasing procedures that are transparent, impartial, and
competitive, while avoiding impropriety or the appearance of impropriety by CPB employees.
It is also designed to improve accountability in business transactions that can benefit from
more structured and objective decision-making procedures.

Procurement Activities

During FYs 2010 and 2011, CPB expended approximately $525 million and $496 million,
respectively for contracts, grants and corporation administration expenses. These
expenditures included funds used for radio and television Community Service Grants
(CSG), Interconnection and Fiscal Stabilization Grants, and other nondiscretionary grants,
as well as for various CPB expenses such as salaries. These expenditures are not
recorded in GIFTS and are not competitively awarded because nondiscretionary grants are
statutorily mandated.

CPB’s GIFTS database records award information related to all CPB contracts and
discretionary grants. GIFTS records whether the procurements are competitive or sole source,
but does not routinely identify grants. The procurement method identification field is generally
left blank for grants.

For the period of our review, awards of more than $389 million were recorded in GIFTS for
the 745 discretionary grants and contracts awarded competitively or sole source. A detailed
analysis by procurement type and fiscal year is presented in Exhibit B.




                                               4
                                RESULTS OF REVIEW

We have evaluated CPB’s practices for awarding contracts and grants for the period
October 1, 2009 through April 1, 2012. CPB management is responsible for establishing
procurement policies and procuring goods and services, as well as awarding national
programming grants in accordance with the Public Broadcasting Act (Act).

Our evaluation was conducted in accordance with the CIGIE Quality Standards for
Inspection and Evaluation, and accordingly, included evaluating, on a test basis, evidence
of CPB’s compliance with its procurement, contract, and grant award policies and
performing such other procedures as we considered necessary. We believe that our
evaluation provides a reasonable basis for our conclusions.

Our evaluation of 19 contracts and 8 grants from the 745 contracts and discretionary grants
awarded competitively or sole source found the following:

   •   10 of 13 sole source justifications did not adequately document that the contractors
       selected were the only contractors “practicably” available or that an emergency
       existed;
   •   3 of 4 production grant awards were not reviewed by an outside panel as specified by
       the Act;
   •   4 of 4 grants for non-production services were not required to be reviewed by an
       outside panel;
   •   6 of 6 competitive contract procurements provided assurance that contracts were
       awarded to qualified providers for a reasonable cost; and
   •   no evidence that digital funds were not used in accordance with the appropriation
       requirements.

Additionally, we observed that procurements recorded in GIFTS did not accurately describe
the agreement as either a contract or grant, or whether the contract was competed or was
sole source. Such classifications would assist in determining what procurement guidelines
to follow in approving the contract or grant.

Overall we concluded that CPB needs to adhere more closely to its procurement policies
and procedures when awarding sole source contracts, as well as more consistently comply
with Act requirements when awarding national programming grants. Based on our
evaluation we could not substantiate the allegations of favoritism in awarding contracts and
grants from the documented records. To avoid any appearance of favoritism in awarding
contracts and grants, CPB should ensure that sole source justifications appropriately justify
the reasons contractors are considered the only practicable option and that emergencies
exist. Further, national programming proposals should be reviewed by outside panels, as
specified by the statute.




                                              5
                       FINDINGS AND RECOMMENDATIONS

Procurement Decisions Need to be Better Documented

We found that CPB needs to adhere more closely to its procurement policies and
procedures when awarding sole source contracts, as well as more consistently comply with
Act requirements when awarding national programming grants. To avoid any appearance
of favoritism in awarding contracts and grants CPB should ensure that sole source
justifications appropriately justify the reasons contractors are considered the only
practicable option or that emergencies exist. Additionally, national programming proposals
should be reviewed by an outside panel, as specified in the statute. Competing services
enables CPB to fulfill the stated purpose of its procurement policy and ensures that it
obtains the best goods and services at the best price from the best contractors and
grantees in a transparent and impartial manner.

Various U.S. Government Accountability Office (GAO) studies have concluded that
competition is a cornerstone of the acquisition system and a critical tool for achieving the
best possible return on public investments. The benefits of competition in acquiring good
and services from the private sector are well established. GAO also reported that
competitive contracts can help save taxpayer money, improve contractor performance, curb
fraud, and promote accountability for results.

While our sampling (Exhibit C) was skewed towards sole source procurements to address
the allegations of favoritism in contract and grant awards, we found that CPB should clarify
its existing sole source policies and procedures to better document its procurement
decisions and implement formal policies addressing the need to have national programming
proposals reviewed by outside panels. Specifically, our review of 19 contracts and 8 grants
found that:

   •   10 of 13 sole source justifications for contracts did not adequately document that the
       contractors selected were the only contractors “practicably” available (6 contracts) or
       that an emergency existed (4 contracts);
   •   6 of 6 competitive contracts complied with CPB procurement requirements and
       provided CPB with reasonable assurance that contracts were awarded to qualified
       providers for a reasonable cost;
   •   3 of 4 production grant awards were not reviewed by an outside panel as specified
       by the Act; and
   •   4 of 4 grants for non-production services were not required to be reviewed by an
       outside panel.

Further, we could not always determine from the available documentation the origin of the
contracts and grants in our sample, i.e., how the organizations knew that CPB needed their
services. Based on our review of CPB records we identified indications that at times CPB
personnel solicited the proposals but did not open the process for full competition. We also
noted that while CPB files contained a proposal and budget submitted by grantees we could
                                              6
not determine if or how the project was advertised, or if it resulted from an unsolicited
proposal. Such practices leave CPB vulnerable to the kind of complaints of favoritism that
prompted this review.

While we found that 15 of 25 contractors or grantees tested had received previous CPB
contracts or grants, we could not conclude that favoritism was the basis for any of the
awards in our sample based on the documented records and interviews. However, we
noted that two sole source contracts were given to former CPB employees. Moreover, 5 of
the 6 sole source procurements lacking adequate documentation that the contractor was the
only contractor practicably available had received prior CPB contracts. These occurrences
lend credence to allegations of favoritism, particularly when award decisions are not
transparent and adequate documentation is not provided justifying the award. Since the
complaint was anonymous, we were unable to identify the source of the complaint alleging
favoritism to identify and review the specific contracts or grants referenced in the complaint.

Documenting Sole Source Decisions

Our review of 13 sole source contracts found that 10 of the procurement decisions were not
adequately documented. CPB’s policy describes several types of sole source procurement
justifications including: 1) the contractor was the only contractor “practicably” available; or 2)
that an emergency/urgent need existed. Our review found that these decisions were not
adequately documented to demonstrate the basis for these decisions under CPB’s
guidelines. CPB should clarify its existing sole source policies and procedures to ensure
that its project officers better document procurement decisions when these circumstances
arise.

       Only Contractor “Practicably” Available Decisions

Sole source justifications for 6 of the 10 contracts did not adequately document the reasons
why CPB personnel considered specific contractors to be the only practicable option. These
award decisions ranged from multi-million dollar awards made under the Federal Ready to
Learn program to awards for under $100,000 to prepare the CPB Annual Report.

The Project Officer Handbook provides that sole source contracts should be used when
there is only one vendor “practicably” available for the project, and that “this option should
not be used in most instances.” Further, discussions with CPB officials regarding their view
of “practicably” indicated they believed it to mean the sole source contractor was the only
vendor “practicably” or feasibly available to provide the services being procured.

However, CPB’s application of “practicably” did not conform to this definition. For the most
part, CPB personnel used sole source contracting to obtain the services of contractors who
had done good work for CPB in the past, or whom they believed had unique qualifications.
We found that there was not sufficient evidence provided in the sole source justifications to
substantiate why a contractor was determined to be the only practicable option. Further,
under the federally awarded Ready to Learn grant, U.S. Department of Education

                                                7
procurement guidelines require grantees to perform cost analysis of proposals to support
award decisions made without competition, which did not occur.

The following examples present the justifications CPB used to support the sole source
award decisions and our evaluation of these decisions.

Ready to Learn Contractor Award Decisions

CPB, in collaboration with PBS, was awarded a $72 million grant from the U.S. Department
of Education for a Ready to Learn initiative, of which $15 million was used for research.
Under this initiative, CPB awarded two sole source contracts for research—contract #13871
was awarded for $10 million and contract #13872 for $5 million—because the contractors
were considered uniquely qualified or had a favorable work history with CPB. While the
justification for the second contract was essentially the same as the first, the sole source
justifications for contract #13871 stated that the contractor:

         …served as CPB’s evaluation partner in the last grant and was
         selected to partner with CPB/PBS in this grant because of the unique
         qualifications … [they bring] to helping us meet the evaluation goals
         and objectives solicited by the [U.S. Department of Education] RFP.

         We had an important and successful partnership … in the last round
         …. The evaluations they conducted for us were regarded highly by
         CPB and the U.S. Department of Education.

         As a practical matter, even if we went through a formal procurement
         process, it is highly unlikely any other organization would be better
         qualified for this work ….

         To justify that the contractor’s price was appropriate the justification
         stated:

         The RFP for Ready to Learn required that a percentage of the budget
         be set aside for evaluation. CPB/ PBS negotiated with … [the
         contractor] to keep its budget within CPB’s desired limit. Its costs are
         comparable to the previous evaluation it conducted for CPB.

While we have no reason to doubt that these contractors provided acceptable performance
in the past, the CPB justification did not substantiate that they were the only contractors
“practicably” available to provide these services. CPB’s sole source justification stated that
it is “highly unlikely” an RFP would identify a more qualified contractor. However, without
issuing an RFP to obtain responses from other contractors, or providing some other
documented substantiation to show that no other contractors could or would provide the
evaluation services needed, we have no basis to judge that the contractor was the only
practical option or that CPB procured services from the best contractor at the best price.

                                               8
Subsequent discussions with CPB personnel indicated that there was another reason for
using sole source for these two contracts. They explained that CPB did not have sufficient
time to issue an RFP for 10 days and consider other contractors because of the timing of
the grant announcement (RFP) issued by the U.S. Department of Education. However, this
was not the basis on record to justify these sole source procurements.

Further, regardless whether the award was made based on the contractor being the only
one practically available or on an emergency basis, CPB did not adequately document the
procurement decision to satisfy the U.S. Department of Education General Administrative
Regulations and Other Applicable Grant Regulations (EDGAR), that were applicable to
these two contract awards. EDGAR requires that when a contract is awarded without
competition or only one bid is received in response to a solicitation, CPB was responsible to
maintain records of its pre-award review, the RFP, and independent cost estimates. As part
of its pre-award review CPB was required to perform cost analyses for these procurements.
However, CPB did not comply with these requirements for these two Ready to Learn
contracts because RFPs were not issued and the cost analyses were not performed as
required by EDGAR.

      Contract #14516 Decision

Contract #14516 was a sole source consulting agreement for the writing, design and
production of CPB’s FY 2011 annual report. The sole source decision was justified because
the contractor was considered to be uniquely qualified based on past work. The
concurrence form for this contract, dated February 2012, explained that because CPB had
recently awarded a sole source contract to another vendor to redesign its Web site, the
2011 annual report must be done on something of an interim basis pending completion of
the Web site redesign. The concurrence further stated that this would minimize the amount
of staff time that CPB would have to devote to bring a new vendor “up to speed” just for the
2011 report.

What the 2011 concurrence did not state was that this same contractor was awarded a sole
source contract to produce the 2008 – 2010 annual reports because she had been chosen
competitively in 2005 through 2007, and because “the reports had been so well received.”
While the 2007 contract award began as a competitive procurement, our review of the
supporting information for this contract disclosed several anomalies in the evaluation factors
that made the decision less than transparent, even though CPB’s procurement policy
requires contracts awards be transparent.

In effect, this contractor was awarded the subsequent 2008-2010 contracts sole source
based on the 2007 competitive award that was less than optimally transparent. Further, this
same contractor received a sole source contract for the preparation of the 2011 annual
report because of a Web site redesign. The justification for the 2011 contract award
becomes further questionable when CPB cancelled the Website redesign 3 weeks after
CPB awarded the 2011 contract for the annual report.


                                              9
      Contract #14485 Decision

Contract #14485 was another contract awarded based on unique qualifications and past
work experience. The concurrence explained that sole source was appropriate because
this contractor:

        …has administered and managed SABS/SAS for the past seven years.
        Presently, the technical components and the procedures required to
        launch and administer surveys are known only to … [this contractor].
        CPB staff and other vendors do not have the capability to launch and
        administer SABS/SAS…. For this reason, it would not be practical to use
        another vendor…therefore, we are sole sourcing the administration and
        management of SABS/SAS….

The concurrence also explained that the price for the 2011 sole source contract was
appropriate because it was comparable to the 2009 and 2010 contracts that were
competitively bid. However, being able to competitively bid the 2009 and 2010 contracts
contradicts the concurrence statement for the 2011 contract that only the incumbent had the
knowledge of the technical components and procedures needed for the 2011 contract.

Our review of the scoring for the 2009 and 2010 contracts disclosed other contractors’
proposals received scores close to the incumbent contractor’s score. For example in 2010,
a competing contractor’s proposal received a score of 16.6 versus the incumbent’s score of
17.4. While CPB complied with the procurement policy when it awarded the contract to the
incumbent in 2010, that award did not justify awarding the 2011 contract on a sole source
basis because CPB believed no other contractor had the capability to perform the services
requested. A score of 16.6 evidences a level of capability, albeit not as high as the
incumbent’s since they had worked on this project for seven years. However, CPB should
have competitively bid the 2011 contract to ensure they obtained these services at a
reasonable price. The contractor who lost the 2010 award (with the 16.6 score), bid 20
percent or almost $51,000 less than the incumbent’s bid. Competitively bidding the 2011
contract awarded for $185,000 could have possibly identified other qualified contractors,
saved CPB funds, and provided more transparency.

      Emergencies and Urgent Need Decisions

CPB awarded 4 of the 10 questioned sole source contracts based on unjustified
emergencies and urgent need. CPB’s procurement policy Section II defines an emergency
as an “urgent and unforeseen situation that requires immediate acquisition of goods and
services.” Our review of these 4 sole source procurement justifications did not adequately
document that an emergency existed. The following examples present the justifications
provided to support the sole source award decision.




                                            10
       Contract #14374 Decision

The sole source justification for contract #14374 stated that the project needed to be
completed by the end of the fiscal year, but did not explain why. The proposal submitted by
the contractor was dated July 11th and the contract was not awarded until August 29th.
According to the contract terms, the contract was to cover the period August 29, 2011
through November 21, 2011. The sole source justification did not identify an emergency
that was an unforeseen event, and only touted the expertise of the contractor selected, a
former CPB employee.

It is also important to note, that the services obtained under this contract, initially awarded
for $20,000, were not particularly specialized—i.e., develop communications strategies.
Subsequently, CPB amended this sole source contract to increase the scope of work to
include web site design, increasing the contract price to over $50,000, and extending the
contract performance period to June 2012. These amendments were made without
obtaining the approval of the COO, which was required by the CPB Amendments Policy
when the contract price was increased by more than 10 percent or $25,000.

       Contract #14067 and # 13914 Decisions

We also found that CPB at times piggy-backed the procurement of routine services onto
contracts that were originally sole sourced because of an emergency. Two such examples
were contracts #14067 and #13914.

CPB awarded contract #14067 sole source for $240,000 because they needed a contractor
to provide analysis for an upcoming congressional hearing. Although we could not
determine from the procurement files when CPB first knew it needed to prepare for the
hearing, our review disclosed that: 1) the April 6th congressional hearing was cancelled
before the contract was signed on April 7th; and 2) the contract required the contractor’s
services until June. When we asked why the contractor needed to provide its services until
June, the project officer told us that the contract scope was expanded to include other work
(Phase2), and that the contract was signed after the hearing was cancelled because CPB
believed the information the contractor was going to provide would still be of value.

Contract #13914 was a $70,500 contract awarded sole source when CPB was faced with an
emergency situation because the FCC issued a proposed rulemaking with an unusually
short timetable to accept comments. However, CPB’s justification did not explain that this
contract included three separate tasks but only one of the tasks was related to the FCC
rulemaking project. The other two tasks were for non-emergency matters and suitable for
competitive procurements.

Review Panels Needed for Production Grants

Our review of eight grants found that four grants were for media content or productions for
national programming. Only one of these four grants was reviewed by an outside panel as
specified by the Act. These reviews are especially important considering that grants for
                                               11
national programming are usually the high dollar value awards. The three national
programming grants we found that were not reviewed by an outside panel ranged in value
from $1 million to $2 million.

The Public Broadcasting Act Section 396(g)(2)(B)(i) authorizes CPB to award grants to
public telecommunications entities, as well as independent producers and production
entities for the production or acquisition of public telecommunications services to be used by
public telecommunications entities, i.e., national programming. This section of the Act also
requires CPB “to the extent practicable” to appoint panels of outside experts representing
diverse interests and perspectives to evaluate the proposals received for these grants on
the basis of comparative merit.

The Act further stipulates that when CPB awards funds for the production or acquisition of
national programming, the Corporation shall make available for public inspection the grant
and solicitation guidelines for proposals of such programming and the reason for selecting
the proposal. In effect, the Act requires that when awarding discretionary grants for national
programming, CPB shall to “the extent practicable” solicit proposals and have panels of
outside experts evaluate the proposals received.

The Project Officer Handbook Section 3 explains that grant proposals can be either solicited
or unsolicited. Section 4 explains that although grants are not subject to the procurement
policy, RFPs used to solicit grant proposals shall be fair, transparent and reviewed by the
CPB Office of Business Affairs. Section 4 of the Handbook under the heading entitled
Procurements and Competitive Grants also explains that similar to contracts, grant
proposals are expected to be evaluated in a consistent and transparent manner by at least
three qualified individuals, and that the selection criteria and associated weights must be
established before the review process. While the Handbook defines that there are two
types of panel reviews—internal and external—it does not specify that the panels used for
grants must be external as required by the Public Broadcasting Act. However, the
Handbook does specify that if a panel review is not possible, the project officer should
document the reason. The Handbook also requires that proposal evaluation sheets shall be
used to score each reviewed proposal and that in most cases grant proposals shall undergo
a panel review.

The project files for the eight grants we reviewed disclosed that three of the four national
programming grants were not reviewed by panels of outside experts as required by the Act.
Our analysis of the grant award documentation is presented in the following table.




                                              12
                           Analysis of Grant Award Documentation

                                       Media Content/
                           Grant         National               External         Internal
                          Number       Programming            Panel Review     Panel Review
                          13375              Yes                  No                No
                          13874              Yes                  No                No
                          14072              Yes                  No                No
                                                                        1
                          13766              Yes                  Yes               N/A
                          13976               No                  Yes               N/A
                          13938               No                  N/A               No
                          14141               No                  N/A               N/A
                          14554               No                  N/A               No

                      1    Panel review was for the phase 1 grant, we audited the phase 3 grant.


Also, CPB’s procurement records did not indicate whether the grants resulted from solicited
or unsolicited proposals, or if RFPs were issued. CPB’s records for 5 of the 8 grants
reviewed also did not document the reason that the external panels required by the Act (3 of
4 grants) were not used to evaluate the project , or contain evidence of internal panel
reviews (2 of 4 grants) and indicate if evaluation sheets were used to evaluate the proposal.

CPB’s Concurrence form asks the program officials several questions to explain to
concurrence officials the reasons for awarding the grant. For all four grants awarded for
media content, the concurrence forms were incomplete and did not document:

   •   the procurement method used for awarding the grants i.e., sole source or
       competitive;
   •   why the procurement method used was appropriate;
   •   why this entity was selected;
   •   the results of the internal and/or external panel review;
   •   how CPB knew the project costs were appropriate; and
   •   the results of the market analysis.

Discussions with CPB personnel disclosed that this information was required only for
contracts, and if the project was for a grant to obtain media content, it was not necessary to
provide this information. Based on our evaluation of the form, we can appreciate the project
officers’ understanding. The form initially asks if the project will result in media content. If
the answer is “yes”, the project officer is not required to indicate the procurement method. A
procurement method only needs to be indicated for contracts. The next question asks why
the sole source procurement method was appropriate. Again, CPB personnel explained
there is no response needed to this question for media content (grants).

CPB personnel further explained they were not required to answer the questions concerning
why the entity was selected, the results of panel reviews, appropriateness of costs, and the
results of market analysis for grants. CPB needs to revise its guidance to project officers to
                                                         13
require that all applicable questions on concurrence forms are completed not only for
contracts but also for grants. This will provide additional accountability over grant
procurement decisions and provide management information for future planning and
oversight purposes.

Recommendations:

1) We recommend that CPB revise its policies and procedures to improve the
   documentation of solicitation and award decisions by:

   a) Requiring project officers to improve justifications for contractors and grantees that
      are considered the only practicable option. These justifications should be
      substantiated and include more than the selected contractor’s qualifications and past
      performance histories. For non emergency procurements issuing an RFP should be
      the first option instead of using contractors’ qualifications and performance histories
      to deem a contractor as the only practicable option for obtaining goods and services.

   b) Revising the procurement policy to emphasis that emergencies must be unforeseen
      and that non emergency projects should not be combined with projects being
      awarded because of an emergency. This revision should also emphasize that the
      lack of advance planning should not be used to necessitate an emergency
      procurement.

   c) Revising guidance to project officers to require them to complete questions on
      concurrence forms related to procurement method, why grantee was selected, results
      of the panel review, and why the proposed costs were considered reasonable.

   d) Requiring that, to the extent practical, external review panels are used to evaluate
      proposals prior to awarding grants for national programming, as required by the
      Public Broadcasting Act. When panels are not used, the reasons for not doing so
      should be documented, as required by the Project Officer Handbook Section 4.

   e) Ensuring CPB contract and grant files document proposal evaluation sheets,
      including any weighting factors used in the evaluation, in accordance with the
      Procurement Policy.




                                             14
   CPB Management Response:

CPB’s response stated that the report implies that CPB grants for media content should be
awarded and documented in a fashion similar to the award of consulting and other contracts
under the procurement policy. This is apparently based on a reading of the Project Officers
Handbook and CPB’s concurrence forms which relate to but do not govern the formal
procurement process. The Handbook encourages use of a competitive process to award
grants, and the concurrence process questions the manner in which a grant or contract was
procured. Yet the procurement policy, which alone governs how goods and services shall
be purchased, clearly exempts content-related grants from the RFP process. Management
will clarify its operating procedures and guidance, and we have already modified the Project
Officers Handbook to avoid any inference that it somehow supersedes CPB’s procurement
and contracting policies.

The report critiques selected contracts that CPB awarded on a sole source or emergency
basis, the two exceptions to the general requirement for open competition under CPB’s
policy. Most were sole source, for which the policy requires “a written determination that
there is only one vendor practicably available for that which is to be procured….” The key
phrase, “practicably available,” does not mean that the vendor selected must be unique, or
that there is no possibility that another vendor could perform the contract. In a procurement
context, “practicably available” simply means that there is a reasonable expectation that
there is only one vendor, or that open competition would not yield a different result.

Following is a brief summary of the explanations that CPB provided in response to the draft
report for some the procurements discussed in the report. CPB’s complete response
explaining their decisions is presented in Exhibit D.

Contracts #13871 and #13872 (Ready to Learn Research)

Regarding Contracts #13871 and #13872, CPB was in a “Catch 22” situation, where it had
to name vendors in its grant application before it had any assurance they would receive the
grant. A formal pre-grant procurement (even if time permitted, which in this case it did not)
would have been hypothetical with no assurance of a grant to fund the vendors’ contracts
until long after proposals were submitted. Likewise, a post-grant procurement would have
been disingenuous because the firms had already been named, as required, in the grant
application.

For these reasons, CPB’s written justification, that the selection of alternative firms through
an RFP was “highly unlikely,” reflects the reasonable and practicable expectation of what
would happen. This is precisely the kind of justification that the procurement policy requires
to support a sole source decision. Additionally, during December 2012, the US Department
of Education announced a rulemaking that would amend EDGAR to enable selection of a
partner firm without a formal post-award competitive procurement.



                                              15
Contract #14516 (CPB Annual Report).

The sole source vendor selected to do the 2011 annual report (Contract #14516) was
competitively selected by RFP to produce previous reports in 2005, 2006 and 2007. Those
competitive procurements were followed by a three-year sole source contract to continue
production in 2008-2010. After competitively selecting the same vendor for 2005-2007 it
was practicably beyond doubt that the same vendor was best suited to continue production,
at least for the near term. As with other procurements addressed in the report, these
supporting facts may not have been as well-documented as possible, but they certainly
sustain the sole source determination for the most recent production effort. Moreover, the
cost of these services remained reasonable and consistent since the last competitive
procurement, confirming that CPB was not financially prejudiced by continuing to use the
same firm.

Contract #14485 (SABS/SAS Management)

The sole source award of contract #14485 was based on the vendor’s unique qualifications
gained over seven years of doing the same work. As the concurrence stated, “the technical
components and the procedures required to launch and administer surveys are known only
to [the incumbent contractor].” Since the only CPB employee familiar with SABS/SAS
management departed in June 2011, CPB had no practicable alternative to using the
incumbent vendor. By periodically competing this contract through RFPs, CPB confirmed
that the incumbent was the only vendor practicably available. While another vendor could
be trained to assume the work, CPB would have to retain the incumbent to train the
replacement. With respect to reasonableness of the vendor’s price, there should be little
concern with this contract because the $185,000 annual cost is less than it would cost CPB
to perform the work with its own employees.

Contract #14374 (Communications Strategies)

Contract #14374 was needed to ensure the messaging and outreach components for the
American Graduate Initiative would effectively influence outcomes in station communities.
This communications and branding strategy was central to that effort, and much of the work
had to be done before system meetings in August and CPB Board meetings in September
and November 2011. The vendor selected in late July possessed the required qualifications
as an award-winning communications, branding and marketing professional, and as a
former CPB employee who required no learning curve and could begin work immediately.
The subsequent amendment of the contract to perform related website design was a
continuation of the same work, which equally qualified the incumbent as the only source
“practicably” available. Admittedly, the basis for these decisions could and should have
been better documented. Likewise, the failure to obtain COO approval on the concurrence
form was an oversight.




                                            16
Contracts #14067 and #13914 (Preparing FCC and Congressional Hearing Comments)

The report criticizes procurements of “routine services” that were “piggy-backed” onto
emergency sole source contracts. Management agrees that it would be inappropriate if
CPB had subsequently contracted with the same vendor for additional services unrelated to
the initial procurement. However, the added services for contracts #14067 and #13914
represent a logical continuation of the underlying work for which the vendor was selected.
The so-called “piggy-backing” makes good business sense and does not contradict CPB’s
procurement policy. It represents a fair and efficient practice as long as the subsequent
contract amendments do not represent a new or separate project outside of the scope of
expertise for which the vendor was first selected.

Contract #14067 was for research to assist with CPB’s response to a congressional inquiry.
Although the hearing was unexpectedly cancelled, CPB was still required to submit a written
report to Congress on the same issue, and in a compressed time frame. Under the
circumstances, it made no sense to postpone the work and issue an RFP because it was
obvious that the same vendor would be chosen. Contract #13914 was also an emergency
procurement to survey public media stations through “dynamic inquiries” for CPB’s response
to a proposed FCC spectrum rulemaking, notice of which was too short to permit the RFP
process. In addition to the initial survey, CPB needed follow-up inquiries to the stations.
While it may have been possible to do a separate procurement for that service, it would not
have been at all practicable because of the vendor’s knowledge of the issues, survey
methodologies and contacts with subjects of the survey. The additional work, therefore,
qualified as sole source under the policy.

Review Panels for Production Grants

With respect to the discussion of using outside panels to review production grants, we agree
with the central point of your finding that provisions of the Communications Act requiring
review of programming grant proposals “to the extent practicable” by external panels
(§396(g) (2) (B)) and for public disclosure of information on grant guidelines and the
selection of recipients (§396(l) (4) (B)) apply to radio as well as television grants. This is an
oversight in our grant-making process that we will correct. We do not, however, agree with
your conclusion that the Act requires CPB to “solicit proposals and have panels of outside
experts evaluate the proposals received against the criteria formulated to solicit proposals.”
The Act does not so provide, and production grants, as noted earlier, are not subject to the
procurement policy. It is also important to note that most CPB production grants are
unsolicited, consistent with our practice of relying on producing stations, not CPB staff, to
propose public media content.




                                               17
   OIG Review and Comment:

Based on CPB’s management response we consider recommendations 1a-e unresolved
and open pending CPB’s final management decision during audit resolution. Any
implication regarding how CPB should solicit grant proposals was not based on the
Handbook or concurrence forms. Conversely it was based on the Act, which requires CPB
to make grant and solicitation guidelines for national programming, as well as the reason for
selecting the proposal, available for public inspection.

While we agree that grants do not necessarily need to be awarded as a result of an RFP,
we believe CPB should make available grant and solicitation guidelines, as required by the
Act, so that any producer and the public is aware that CPB is accepting proposals for
national programming grants. In that way, when CPB awards a multi-million programming
grant, it can document that proposals were received in response to a specific or open
solicitation call for national programming proposals, or that unsolicited proposals were
evaluated by outside panels similar to the proposals received as a result of a formal
solicitation. Making grant and solicitation guidelines available will ensure CPB complies with
Section (l) (4) (B) of the Act and that grant awards are transparent and minimize the risk of
criticism of favoritism in awarding contracts and grants.

CPB’s comments that it will improve documentation for future grants to show that reviews by
outside panels are not practicable should help make CPB’s grant award practices more
transparent. However, we believe the basis for not using an outside panel should be
credible and not merely be justified as the only producer “practically available.”

As with grants, CPB’s acknowledgement that it needs to better document sole source
justifications for contracts should improve the Corporation procedures for contracts as well.
However, better documentation alone will not resolve all of the contract issues we reported.
CPB must also improve its oversight of awards to ensure better compliance with the
procurement policy.

Our evaluation of CPB’s response by procurement follows:

Contracts #13871 and #138712 (Ready to Learn)

It appears that the proposed rulemaking announced by DOE on December 14, 2012, is
intended to address the problem encountered by CPB for these contracts by exempting
applicants from conducting full and open competition related to partners, if they meet certain
criteria. Hopefully CPB can meet the exemption criteria for future grants requiring pre-
selection of partners.




                                              18
Contract #14516 (CPB Annual Report)

CPB’s response contends the award of the contract #14516 for its 2011 annual report was
justified because the 2005-2007 contracts were competitive and yielded a similar result
each year. For this reason, CPB contends that was beyond doubt the same vendor would
have been best suited to continue production of subsequent reports. We disagree that the
competitive award of the 2007 contract justifies the subsequent sole source awards over the
next four years. Our review of the five scoring (evaluations) factors used in the 2007 RFP,
found that the cost factor was not used to evaluate the proposals. Further, there was no
documentation of the weights assigned to each of the factors when the RFP was issued.
Had these anomalies been addressed during the 2007 award, it appears that another
contractor may have had a better overall score and won the award.

Contract #14485 (SABS/SAS Management)

CPB contends that contract #14485 for its 2011 management of SABS needed to be sole
source because several previously competed SABS contracts yielded only one contractor.
However, the CPB’s procurement files for the “competitively” awarded 2010 SABS contract
also had questionable evaluation practices associated with reviewing the proposals
received. In this case the successful bidder was allowed to refine its deliverables, which
raises questions whether the process was equitable and the subsequent 2011 sole source
award was adequately justified based on the 2010 competitive award.

Contract #14374 (Communications Strategies)

CPB’s response for contract #14374 explains that this sole source award was a justified
emergency because the communications and branding strategy was central to the American
Graduate Initiative, and much of the work had to be done before system meetings in August
and CPB Board meetings in September and November 2011. While CPB’s poor planning
and inaction created an emergency, it was not unforeseen, and as such this sole source
award was not incompliance with the Procurement Policy. CPB should have planned its
work processes better and begun the procurement process sooner, thereby avoiding this
sole source procurement. Likewise, we do not agree that the Website redesign was an
unforeseen emergency.

Contracts #14067 and #13914 (Preparing FCC and Congressional Hearing Comments)

We disagree that piggy backing “routine services” onto emergency sole source contracts
makes good business sense and does not contradict CPB’s procurement policy. We also
disagree that the added services for contracts #14067 and #13914 represent a logical
continuation of the underlying work. While the services added to each contract were of a
similar nature, the added services were not an emergency that merited paying a premium.
GAO reports show that sole source contracting is more expensive than competed contracts.
As a result, CPB paid a premium for non-emergency work by including it as an add-on to an
emergency contract. CPB could have avoided the premium associated with these piggy-

                                            19
backed tasks by posting an RFP on its web site for 10 days and awarding a competitive
contract for the non-emergency work.

                                     *     *        *   *    *

Generally, we found that better planning of upcoming program needs could have avoided a
number of the sole source procurements evaluated in our sample. This would have
included the CPB Annual Report, the SABS/SAS Management, and the Communications
Strategies procurements.

Accurately Classifying Procurements in GIFTS

CPB’s records did not accurately record the use of sole source contracting in GIFTS. The
initial GIFTS information provided to us showed that there were 126 sole source awards
(contracts) for the period of our review (October 1, 2009 through April 1, 2012).
Subsequently, CPB personnel indicated that they did not believe there were that many sole
source contracts awarded during our review period. They explained that as a result of a
previous OIG audit in 2005, CPB began providing reports to its Board that identified
consulting contracts that were procured sole source and the reasons for using sole source.
They had reported 41 sole source consulting procurements during our review period.

As a result, we reviewed the GIFTS procurement classifications and identified that only 60
contracts were awarded on a sole source basis as detailed in the following table.

                            CPB Adjusted Contracts Awards

                         Number of        Percent of        Dollar Value of    Percent of
             Method       Awards         Total Awards         Contracts       Total Dollars

           Competitive      277                82            $39,988,000           68

           Sole Source       60                18            $19,217,000           32

             Totals         337                100           $59,205,000          100

Our review disclosed that the difference between the 60 sole source contracts and the
41contracts reported to the Board were 19 non-consulting contracts. The 66 contract
difference between the 126 sole source contracts listed in GIFTS and the 60 identified by
CPB management were contracts that project officers had mistakenly classified as sole
source procurements.

Based on the sample of 19 contracts, we found that the reconstructed 60 sole source
contracts may not be completely accurate either. As the following table demonstrates our
sample was taken from the procurement classification in GIFTS. After auditing the
procurements we classified them according to what we found (i.e., competitive contract, sole
source contract or grant) as presented in the following table. This included reclassifying
                                                 20
some of the sole source procurements to other categories and visa versa, but these
reclassifications did not change the total number of sole source procurements in our
sample. Based on this small sample we could not project what the actual composition of the
universe is by type of procurement.

                            Reclassification of Audited Procurements

                                               Original              After
                              Method           Sample     Percent    Audit   Percent

                            Competitive           8            30     6         22

                           Sole Source           13            48     13        48
                                           1
                           Blank (grant)          6            22     8         30

                              Totals             27            100    27       100

It appears that CPB’s methodology for classifying grants and contracts in GIFTS caused the
inaccurate reporting. Section 4 of the Project Officer Handbook provides that CPB use the
term “contract” to refer to both grants and contracts (purchase agreements). Section 5 of
this same reference requires project officers to document the procurement method (sole
source or competitive) only for projects without media content (contracts). Projects with
media content (grants) are not subject to the CPB procurement policy. Consequently, the
Handbook instructs project officers not to specify a procurement method for grants.

Adding to the confusion is that grants can be solicited via an RFP (competitive), a directed
solicitation to a limited number of vendors (limited competition), or initiated from an
unsolicited proposal (sole source). The grants mislabeled as competitive in our sample
were generally awarded via an RFP and the grants mislabeled as sole source in GIFTS
were often awarded without an RFP. Classifying grants as grants instead of contracts
would clarify reporting, especially in GIFTS and on concurrence forms. This more precise
classification of grants would also help ensure sole source contracts are correctly classified
in GIFTS.




1
  Section 5 of the Project Officer Handbook requires that projects with media content (grants) should not
indicate a procurement type, i.e., sole source or competitive, but this information should be left blank.

                                                          21
Recommendations:

2) We recommend that CPB revise its policies and procedures to improve recording of
   contracts and grants awards in GIFTS by:

   a) Identifying awards as a grant or a contract rather than classifying both grants and
      contracts as contracts. This change will enable project officers to more easily
      determine which policies and procedures are applicable and accurately report the
      type of award being completed i.e., sole source or competitive contracts as well as
      sole source and competitive grants in GIFTS and on concurrence forms.

   b) Revise the CPB Concurrence Form to require project officers to specify the type of
      award (competitive or sole source) for all grants, including those with media content,
      to identify grants that should be competed in accordance with the requirements of the
      Public Broadcasting Act.

   c) Ensure GIFTS accurately describes procurements as grants or contracts (sole source
      or competitive) to provide accountability over all procurement activities and permit
      oversight of sole source contracting activities, as well as ensure production grants
      are reviewed by outside panels in accordance with the requirements of the Public
      Broadcasting Act.

   CPB Management Response:

CPB’s response stated that the draft report critiques the adequacy of information in the
Grants Information and Financial Tracking System (GIFTS) and suggests that GIFTS should
be modified to alert project officers to the policies and procedures applicable to each project
and “to provide accountability over all procurement activities and permit oversight of sole
source contracting activities, as well as ensure production grants are reviewed by outside
panels….”

CPB’s response explained that it relies on its accounting system, Great Plains, to track
financial data, and the Concurrence Request System (CRS) to review and track detailed
approvals of each project, and it is these records that are suitable for audit purposes.
GIFTS cannot serve as the system of record for auditable procurement and grant
information because it does not necessarily maintain the data as it was when approved
because data in GIFTS changes over time. Since multiple people may modify GIFTS data,
including project officers who often change and update data to manage and maintain project
activity records, the information maintained is not necessarily the same as it was when the
project was approved. GIFTS may not always match the payment records in Great Plains
that CPB always relies on as the true record, since it has auditable documentation and
processes with checks and balances when data is recorded. Data pertaining to sole source
or emergency procurement determinations is first entered into the CRS; though it may be
later transferred to GIFTS, CRS is the reliable audit source. Finally, concurrence forms do

                                              22
not always note whether a project is a grant or otherwise, and that is not always a project
officer decision.

Accordingly, CPB said that it cannot use GIFTS as the system of record to track this
information. CPB also stated that it will consider revising the procurement section of the
concurrence form to indicate whether a project is a grant or a contract, and (a) if it is a
contract, how it was procured, or (b) if it is a grant, whether it contains media content, and if
so whether it was reviewed by panel or why it was not. CPB may also consider
documenting the source of a grant proposal (whether solicited or not) on the form.

OIG Review and Comment:

CPB’s proposed actions meet the intent of 2a and b and should improve CPB’s ability to
manage it awards. We consider these recommendations resolved but open pending CPB’s
corrective actions to revise the concurrence form. Recommendation 2c is considered
unresolved and open pending CPB’s final management decision during audit resolution.

Although CPB’s response regarding the changing nature of GIFTS information and the
inadequacies associated with using GIFTS data as a system of record is understandable for
most of the information discussed. However, we still believe it would be beneficial if, at the
time of award, GIFTS were annotated to indicate whether the award was a grant or a
contract and if it was sole source or competitive. There should be no need for this data to
change after the award and this information would be helpful for monitoring sole source
procurements.




                                               23
                                                                                 Exhibit A

                           SCOPE AND METHODOLOGY
We performed our evaluation in accordance with the CIGIE Quality Standards for Inspection
and Evaluation, dated January 2012. We performed our evaluation field work during the
period May through October 2012.

The scope of our work included tests of grants and contracts awarded from October 1, 2009
through April 1, 2012. We judgmentally selected 27 of 745 contracts and grants recorded in
GIFTS, per Exhibit B. Our sample included 13 sole source procurements to address the
allegation of favoritism in awarding grants and contracts. We also reviewed GIFTS to
identify previous grants and contracts awarded to the grantees and contractors included in
our sampled grants and contracts to identify any patterns in awards to specific grantees or
contractors. We were unable to identify the source or sources of the allegation to discuss
with them the specific contracts or grants referenced in their complaint. The balance of our
sample included 3 competitive contracts, 3 directed contracts, and 8 grant awards.

In conducting our evaluation, we reviewed CPB’s grant and contract files maintained by its
Office of Business Affairs, and CPB project officers, as well as information in GIFTS for
each of the 27 projects included in our sample. For the projects in our sample that made
use of digital funds, we assured such use was consistent with the appropriation. We
reviewed CPB policies and procedures applicable to the solicitation, award, administration
and management of grants and contracts. We also discussed our results with CPB
management and the project officers assigned to the projects reviewed. We also discussed
the award procedures for contracts and grants with CPB officials from the General
Counsel’s Office and the Chief Financial Officer’s Office.

We gained an understanding of CPB’S internal controls over the procurement of contracts
and grants by reviewing CPB’s Procurement and Contracts policies, the Project Officer
Handbook, CPB’s deobligation and amendment policies, the guidance for CPB’s
Concurrence Request System (CRS), and its Grants Information and Financial Tracking
System (GIFTS).




                                             24
                                                                                                Exhibit B

                            Analysis of Procurement Types


                  CPB Awards Recorded in GIFTS by Fiscal Year
                      For the period October 1, 2009 through April 1, 2012



                                               Sole          No Description
         Fiscal Year         Competitive      Source*          (Grants)**       Total Awards

             2010                82             29                205           $167,459,000

             2011                148            24                184             204,235,000

            2012***              47             7                 19              17,042,000

            Totals               277            60                408           $388,736,000

* Sole source total recalculated by CPB management.
** Awards without description were generally grants, i.e., production, digital conversion, or My Source, etc.
*** FY 2012 dollar amounts are for a partial fiscal year.




                            CPB Awards by Procurement Method
                      For the Period October 1, 2009 through April 1, 2012


                              Method                 Number              Amount

                    Competitive Contracts             277                $39,988,000

                    Sole Source Contracts               60               $19,217,000

                    No Description (Grants)           408               $329,511,000

                    Total                             745               $388,736,000




                                                 25
                                                                                                                     Exhibit C
                                                    Evaluation Results

                                                                          Non-
                                                       Compliant        complaint
                   Agreement          Type of            with             with
Agreement #         Amount          Procurement        Policy/Act       Policy/Act         Explanation of Non-compliance


Contracts:
   13760               $214,950      competitive            x
   14419                $24,475      competitive            x
   14478               $120,000      competitive            x
                                       limited
   13565                $65,000      competition            x
                                       limited
   14269                $35,000      competition            x
                                       limited
   14540               $520,000      competition            x
   13914                $70,500      sole source                            x        emergency not adequately justified
   14434               $146,918      sole source            x
                                                                                     only contractor practically available not
   13871             $9,997,242      sole source                            x        adequately justified
                                                                                     only contractor practically available not
   13872             $4,959,677      sole source                            x        adequately justified
                                                                                     only contractor practically available not
   13940                $30,111      sole source                            x        adequately justified
   13974                $27,914      sole source                            x        emergency not adequately justified
   14067               $240,000      sole source                            x        emergency not adequately justified
   14199                $25,000      sole source            x
   14374                $50,000      sole source                            x        emergency not adequately justified
                                                                                     only contractor practically available not
   14439               $114,000      sole source                            x        adequately justified
                                                                                     only contractor practically available not
   14485               $185,000      sole source                            x        adequately justified
                                                                                     only contractor practically available not
   14516                $79,950      sole source                            x        adequately justified
   14542                $12,000      sole source            x


Grants:
   13976*              $300,000       unsolicited           x
   14141*               $31,500      competitive            x
   13375             $1,999,160       unsolicited                           x        proposal not reviewed by outside/inside panel
   13874             $1,000,000       unsolicited                           x        proposal not reviewed by outside/inside panel
   13938               $247,612       unsolicited                           x        proposal not reviewed by inside panel
   14072             $1,250,000       unsolicited                           x        proposal not reviewed by outside/inside panel
   14554                $75,000       unsolicited                           x        proposal not reviewed by inside panel
   13766**             $662,500       unsolicited           x


             *    not a programming grant
             **   programming grant with an outside panel review



                                                                   26
Exhibit D
